OFFICE OF THE INSPECTOR GENERAL


       CONTROLS OVER COPYRIGHTED COMPUTER
       SOFTWARE AT THE DEFENSE TECHNOLOGY
             SECURITY ADMINISTRATION




 Report Number 92-134              September 9, 1992




           Department of Defense
The following acronyms are used in this report.

DTSA . . . . . . . . . . . . . . . . . . . Defense Technology Security Administration
IBM . . . . . . . . . . . . . . . . . . . International Business Machines Corporation
                         INSPECTOR GENERAL
                          DEPARTMENT OF DEFENSE
                            400 ARMY NAVY DRIVE
                       ARLINGTON, VIRGINIA 22202-2884




                                               September 9, 1992

MEMORANDUM FOR DIRECTOR, DEFENSE TECHNOLOGY SECURITY
               ADMINISTRATION

SUBJECT:     Audit Report on Controls over Copyrighted
             Computer Software at the Defense Technology
             Security Administration (Report No. 92-134)


     This final report is provided for your information and use.
The report addresses unauthorized use of copyrighted computer
software on computers within the Defense Technology Security
Administration.  The audit was performed as part of our overall
Audit of Controls Over Copyrighted Computer Software.

     Comments on a draft of this report conformed to the
requirements of DoD Directive 7650.3, and there are no unresolved
issues.  Therefore, no additional comments are required.

     The courtesies extended to the audit staff are appreciated.
If you have any questions on this audit, please contact
Mr. Harrell D. Spoons on (703) 692-2846 or Mr. Marvin L. Peek on
(703)   692-2856.



                                       WJ~
                                    Assistant Inspector General
                                           for Auditing


cc:
Under Secretary of Defense for Policy
Assistant Secretary of Defense (Command, Control,
  Communications, and Intelligence)
                   Office of the Inspector General

AUDIT REPORT NO. 92-134                              September 9, 1992
    (Project No.   2RF-5004.02)

           CONTROLS OVER COPYRIGHTED COMPUTER SOFTWARE
        AT THE DEFENSE TECHNOLOGY SECURITY ADMINISTRATION

                          EXECUTIVE SUMMARY

Introduction.   The Defense Technology Security Administration
(DTSA), with an annual operating budget of $8.6 million,
administers the    DoD Trade Security Program.      This mission
includes reviewing and processing export license applications and
ensuring that the security policy for DoD technology           is
implemented.  DTSA was included in our ongoing audit of Controls
over Copyrighted Computer Software because of a DoD Hotline
allegation that DTSA was illegally duplicating and installing
software on its computers.
Objective.  The audit objective was to determine whether DTSA was
using copyrighted software programs in accordance with licensing
agreements. We also evaluated applicable internal controls.

Audit  Results.    Of 133 computers tested, 123 had at least
1 copyrighted software program installed without documentation to
show it had been legally acquired.   Overall, we found 640 copies
of undocumented, installed software with an estimated retail
value of $72, 000.   Use of unlicensed software denies vendors
their rightful revenues.

Internal Controls.   Although DTSA had issued guidance to control
and account for computer software, the policies were neither
effective nor enforced.   The controls we assessed are described
in Part I of the report, and the finding provides details on the
weaknesses.

Potential Benefits of Audit. No monetary benefits are associated
with the recommendations in this report.    Implementation of the
recommendations will ensure that DTSA complies with licensing
agreements for copyrighted software and will prevent liability to
DoD for noncompliance with copyright laws. A summary of benefits
resulting from this audit is in Appendix A.

summary   of   Recommendations.      We  recommended   removing
unauthorized  software   programs from  DTSA' s  computers  and
establishing internal controls over the acquisition and use of
copyrighted computer software.

Management Comments.   The Director, Defense Technology Security
Administration, concurred with the recommendations, and there are
no unresolved issues.  The text of his comments is in Part IV of
this report.
                         TABLE OF CONTENTS




TRANSMITTAL MEMORANDUM

EXECUTIVE SUMMARY                                            i

PART I - INTRODUCTION                                        1

     Background                                              1
     Objectives                                              1
     Scope                                                   1
     Internal Controls                                       2
     Prior Audits and Other Reviews                          2

PART II - FINDING AND RECOMMENDATIONS                        3

     Use of Copyrighted Software                             3

PART III - ADDITIONAL INFORMATION                            9

     Appendix A - Summary of Potential Benefits             11
                  Resulting from Audit
     Appendix B - Activities Visited or Contacted           13
     Appendix c - Report Distribution                       15

PART IV - MANAGEMENT COMMENTS                               17

     Director, Defense Technology Security Administration   19




This report was prepared by the Readiness and Operational Support
Directorate, Office of the Assistant Inspector General for
Auditing, DoD.    Copies of the report can be obtained from the
Audit    Planning   and    Technical  Support   Directorate   at
(703) 614-6303.
                      PART I   -   INTRODUCTION


Background

The Defense Technology Security Administration (DTSA) is under
the direction and control of the Under Secretary of Defense for
Policy.   The Deputy Under Secretary of Defense {Trade Security
Policy) serves as the Director, DTSA.     DoD Directive 5105.51,
"Defense Technology Security Administration," May 10, 1985,
charters DTSA to administer the DoD Technology Security Program
with the mission to review the international transfer of defense-
related technology, goods, services, and munitions consistent
with U.S. foreign policy and national security objectives.   This
mission includes reviewing and processing applications for export
licenses.    At the time of the audit, DTSA was authorized
136 employees and had an FY 1992 operation and maintenance budget
of $8.6 million.
On January 28, 1992, an anonymous allegation was forwarded to the
Inspector General,   DoD,   stating that DTSA had copied and
installed commercial software programs in violation of licensing
agreements and copyright laws.   Also, an article appeared in the
February 6, 1992, issue of Washington Technology reporting that
DTSA had "pirated" computer software from various companies.
U.S.C., title 17, section 106, gives copyright owners exclusive
rights to reproduce and distribute their material, and section
504 states that copyright infringers can be held liable for
damages to the copyright owner. Defense Federal Acquisition
Regulation   Supplement,    paragraph    252.227-7013 prohibits
unauthorized distribution or copying of commercially-developed
software without written consent from the supplier.
Objectives

The objective of the audit was to determine whether DTSA had
installed commercial software programs      in accordance with
licensing agreements and copyrights.  We also evaluated policies
and   procedures   for   the  control   and   accountability  of
microcomputer software in DTSA.
Scope

DTSA had 150      IBM-compatible 1 microcomputers and 38 other
microcomputers.    We examined files installed on 13 3 of DTSA's


1. IBM is a registered trademark of the International Business
Machines Corporation.
150 IBM-compatible computers to determine which commercial
software programs were installed.        We physically examined
22 computers to identify the software installed, and we examined
software   files   DTSA   personnel  extracted  from   the  other
111 computers.   We judgmentally selected a sample of 50 software
programs purchased by or found installed on DTSA computers    for
detailed review.      We examined available computer software
procurement and inventory records, dated from October 1988
through February 1992, to determine the number of copies of
software programs authorized to be installed on DTSA computers.
We also contacted software vendors to verify information when
necessary.   In addition, we evaluated internal controls over the
installation and operation of software on DTSA's computers.
This program audit was made from March through April 1992.  The
audit was made in accordance with auditing standards issued by
the Comptroller General of the United States as implemented by
the Inspector General, DoD, and accordingly included such tests
of internal controls as were considered necessary.   Activities
visited or contacted are listed in Appendix B.
Internal controls

We examined controls over the accountability and installation of
computer software and found that controls were neither effective
nor enforced.    However, we did not consider these weaknesses
material as defined by Public Law 97-255, Office of Management
and   Budget  Circular   A-123,    and DoD   Directive   5010.38.
Implementation of Recommendation 2. in this report will correct
the weaknesses.   Details on the weaknesses are discussed in the
finding in Part II of this report.
Prior Audits and other Reviews

The Assistant Inspector General for Inspections, DoD, conducted
an inspection of DTSA during July and August 1991 and issued
Report No. 92-INS-08, "Defense Technology Security Administration
Inspection Report," on April 17, 1992. Compliance with commercial
software licensing agreements was not covered in the inspection.
However,   the   overall  evaluation   indicated  that   internal
management controls and oversight within DTSA were inadequate.




                                 2
              PART I I - FINDING AND RECOMMENDATIONS


USE OF COPYRIGHTED SOFTWARE

Of 133 computers tested, 123 had at least 1 copyrighted software
program installed without documentation to show it had been
legally acquired.   Overall, we found 640 copies of undocumented
software installed with an estimated retail value of $72,000.
The unauthorized copies were installed because controls over the
use of microcomputer software were not effective and because DTSA
management did not ensure compliance with licensing and copyright
restrictions.   Improper use of copyrighted computer software
contravenes Federal law and denies vendors their rightful
revenues.

                      DISCUSSION OF DETAILS
Background

Software vendors attempt to control unauthorized use of their
products through licensing agreements that invoke the protection
available under copyright statutes.      The specific licensing
agreement for each software product is explained in documentation
that accompanies the system disks that enable the user to install
and operate the software program on a computer.         Licensing
agreements for software sold to U.S. Government activities
typically restrict the use of the software program to a single
computer.    In some instances, an activity may purchase a
"site license" or a license to use a software program on a local
area network of computers.   Such licenses permit an activity to
use the covered software program on the number of computers
specified in the agreement.
DTSA Software Management

The Director, Information Resource Management, is responsible for
software management and for providing technical support for
automated systems within DTSA.   A contractor assisted DTSA with
the installation of computer software programs and other aspects
of software management. Although Information Resource Management
personnel are responsible for the installation of computer
software, it is difficult, if not impossible, to prevent users
from installing personally owned or borrowed software programs on
their assigned computers.
DTSA' s Administrative Instruction No.    18,   "Guidelines for
Installation and Operation of Software," published in July 1988




                                3
and updated on November 20,   1991, establishes policy for the
control and accountability    of software.     The  instruction
provides that:
     o   No software will be used on DTSA workstations without
approval from the Director, Information Resource Management.
     o Only copyrighted software licensed to DTSA may be
installed on DTSA equipment. All use shall be in full compliance
with software copyrights.
     o No entertainment software programs will be used on DTSA
equipment.
The Director, Information Resource Management, stated that his
approval was generally not requested before software was
installed on computers.    Except for occasional references to
software   installation in the contractor's biweekly status
reports, records were not maintained by either the contractor or
DTSA personnel to show what software had been installed on DTSA
computers.
The DTSA had inventoried software manuals and installation disks
during November 1989 through January 1990, and in June 1990,
began to maintain a log of software received.        However, an
inventory of software installed on each computer was not
maintained, although the inventory is required by the DTSA
Automated Information System Security Plan, May 22, 1991.
Software Installed on Computers

     Excessive copies.    For 19 of the 50 software programs
sampled, documentation was available to support the acquisition
of at least 1 copy of software found on DTSA computers.
Collectively, there were 645 copies of the 19 software programs;
however, only 266 copies were properly licensed, while 379 copies
were in excess of licensing agreements.    Examples of the use of
excess copies follow.
In May 1990, the DTSA purchased 75 copies of Word Perfect
software, costing $11,100, and 74 copies of Word Perfect Office
software, costing $5,661. However, we found copies of those
programs installed in 123 of the 133 computers examined.   At the
time of our audit, both products were considered standard
software for the IBM-compatible computers used by DTSA.       The
Director, Information Resource Management, stated that he had
verbally approved installing Word Perfect and Word Perfect Office
software during FY 1991 on all IBM-compatible computers before
sufficient copies were purchased so that DTSA could more
effectively perform its mission.      He stated he planned to
purchase additional copies of the software at the beginning of
FY 1992, when sufficient funding was available but did not



                                  4
document that decision.     Documentation showed that the DTSA
received funding authority on December 13, 1991, to purchase
items, such as computer software. On February 19, 1992, the DTSA
ordered 76 copies of Word Perfect software for $11,022 and
75 copies of Word Perfect Office software for $3,126.
Procurement records showed that two copies of a utility program
used to back up hard disks had been purchased at $94.50 each. The
audit showed that copies of the software were installed in
79 DTSA computers.
Although records showed that 7 copies of a copyrighted data base
software program had been purchased, the audit showed that the
program was installed on 29 DTSA computers.    We were informed
that some of the excess copies were installed because DTSA
personnel had received training on the use of the software and
demanded to use the software, even though sufficient copies had
not been purchased.
     Questionable   ownership   of   software.      We found   no
documentation to show that DTSA had          purchased 18 of the
50 software programs in the sample. We found a total of
261 copies of the 18 programs installed on DTSA computers.   Some
of the software we found is discussed below.
Software products on DTSA computers were identified as personally
owned, provided by others, installed by the contractor, or of
unknown origin. The products included:
          o a computer graphics program, with     an   approximate
unit cost of $275, installed on 13 computers;
          o an edit utility program, with an approximate unit
cost of $48, installed on 73 computers; and
          o a word processing program,    with an estimated unit
cost of $205, installed on 7 computers.
DTSA purchased 165 adapter cards (PC 2001-EN) with accompanying
software from TRW, Incorporated, in    three purchases in FY 1988
through FY 1990.    The accompanying software was    installed on
IBM-compatible computers and was considered part of the standard
software for the computers.    Contractors and DTSA personnel had
numerous problems getting the automated systems to work properly
using the version of the software provided with the TRW adapter
cards.   According to contractor and DTSA progress reports in
December 1990, TRW provided DTSA an updated version of the
installed software.   The updated version was installed on 123 of
the 133 computers tested in our audit sample.    A DTSA automated
systems specialist, who worked closely with TRW, stated that TRW
field engineers told her the updated version was provided at no
cost and could be used on computers already using the older



                                5
version.  However, documentation on the verbal agreement was not
maintained by DTSA or TRW. TRW's standard procedure is to charge
customers about $50 for each upgraded version of the software.
We do not fault DTSA personnel for installing the updated version
of the software without additional payment, if TRW marketing
representatives stated the charge was waived; however, the
absence of documentation precluded verification that payment was
not required.
Loaned Software

DTSA purchased and installed 10 copies of a data management
software program on two local area networks.   Since DTSA was not
fully utilizing all 10 copies of the software, DTSA gave a copy
of the software and a photocopy of the user manual to one of its
contractors in August 1991. When the software vendor learned of
the loan in the fall of 1991, it telephoned DTSA to protest the
violation of the licensing agreement. On February 20, 1992, DTSA
requisitioned an additional copy of the software for $1,144.
Corrective Actions

In September 1990, DTSA tasked the software support contractor to
develop a Resource Management Data Base System.       One of the
planned modules of the system included a software management data
base.  On February 26, 1992, the contractor provided DTSA with a
draft software inventory module that could provide reports
showing software purchased, the number of legal licenses for each
software program, a list of the software installed on each
computer, and a list of software acquired that had not been
assigned or installed.   If unauthorized software is removed from
DTSA computers and the planned software inventory data base
program is implemented, DTSA should have an effective procedure
to account for and control computer software.       These actions
coupled with periodic internal reviews will ensure integrity of
all information systems.
Conclusion

DTSA had established policies that, if enforced, should have
eliminated unauthorized software from being installed on its
computers; however, DTSA' s management of copyrighted computer
software was ineffective.    DTSA management directed or allowed
the installation of software programs in violation of software
licensing agreements, and documentation for software that may
have been licensed was not always maintained. The estimated cost
of the undocumented software we found on DTSA computers averaged
only about $113 per copy; however, copyrighted software at any
cost must be documented to show it was legally acquired.   Use of
copyrighted   software  programs   in   violation  of   licensing
agreements deprives vendors of their rightful revenues.




                                6
    RECOMMENDATIONS, MANAGEMENT COMMENTS, AND AUDIT RESPONSE
We recommend that   the   Director,   Defense   Technology       Security
Administration:
      1.  Identify and remove from the computers each software
program for which a licensing agreement has not been purchased.
     2.   Establish procedures for the      acquisition and use        of
copyrighted computer software to:
          a. Maintain a current inventory            of    the   software
authorized to be installed on each computer.
          b. Periodically   review    the   propriety       of   software
installed on computers.
          c. Inform employees of software licensing agreements
and copyright restrictions.
          d. Provide for disciplinary       action    if    an   employee
violates a software licensing agreement.

     Management comments.    The Director, DTSA, concurred with
the recommendations   and   stated  that   copyrighted  software
programs without adequate documentation had been removed from
computers.   A copy of DTSA's revised procedures implementing
Recommendation 2. was included in the response.
     Audit response.   We consider management's comments to be
fully responsive to the recommendations.




                                7
                PART III - ADDITIONAL INFORMATION



Appendix A - Summary of Potential Benefits Resulting from Audit

Appendix B - Activities Visited or Contacted

Appendix C - Report Distribution




                                   9
APPENDIX A:   SUMMARY OF POTENTIAL BENEFITS RESULTING FROM AUDIT

Recommendation
  Reference         Description of Benefit       Type of Benefit

      1.            Compliance with              Nonmonetary
                    Copyright laws. One-
                    time action to purge
                    unauthorized software
                    from computers

      2.            Internal Control.            Nonmonetary
                    Enhances controls over
                    computer software and
                    promotes compliance with
                    licensing agreements.




                                11
APPENDIX B:   ACTIVITIES VISITED OR CONTACTED

Office of the Secretary of Defense

Under Secretary of Defense for Policy
  Deputy Under Secretary of Defense (Trade Security
    Policy)
  Deputy Under Secretary of Defense (Security Policy)
  Defense Technology Security Administration
Washington Headquarters Services

Department of the Army

Defense Supply Service - Washington, Administrative Assistant,
 Office of the Secretary of the Army

Non-Government

Federal Systems Division, American Telephone and
  Telegraph, Incorporated
Decision Systems Technologies, Incorporated
Digital Equipment Corporation
Potomac Systems Engineering, Incorporated
Systems Engineering and Development Division, TRW, Incorporated




                                13
APPENDIX C:   REPORT DISTRIBUTION


Office of the Secretary of Defense

Under Secretary of Defense for Policy
Defense Technology Security Administration
Assistant Secretary of Defense (Command, Control,
  Communications, and Intelligence)
Assistant Secretary of Defense (Public Affairs)
Comptroller of the Department of Defense

Department of the Army

Auditor General, Army Audit Agency

Department of the Navy

Auditor General, Naval Audit Service

Department of the Air Force

Auditor General, Air Force Audit Agency

Other Defense Activities

Director, National Security Agency/Central Security Service
Inspector General, Defense Intelligence Agency
Defense Logistics Studies Information Exchange

Non-DoD Activities

Office of Management and Budget
u.s. General Accounting Office
 NSIAD Technical Information Center

Chairman and Ranking Minority Member of the Following
  Congressional Committees and Subcommittees:

  Senate Committee on Appropriations
  Senate Subcommittee on Defense, Committee on Appropriations
  Senate Committee on Armed Services
  Senate Committee on Governmental Affairs
  Senate Committee on the Judiciary
  Senate Subcommittee on Patents, Copyrights, and Trademarks,
    Committee on the Judiciary
  Senate Select Committee on Intelligence
  House Committee on Appropriations
  House Subcommittee on Defense, Committee on Appropriations
  House Committee on Armed Services
  House Committee on Government Operations
  House Subcommittee on Legislation and National Security,
    Committee on Government Operations

                                15
APPENDIX C:   REPORT DISTRIBUTION (Cont'd)


Non-DoD Activities (Cont'd)

  House Subcommittee on Government Information, Justice, and
    Agriculture, Committee on Government Operations
  House Committee on the Judiciary
  House Subcommittee on Courts, Intellectual Property, and the
    Administration of Justice, Committee on the Judiciary
  House Committee on Science, Space, and Technology
  House Subcommittee on Science, Research, and Technology,
    Committee on Science, Space, and Technology
  House Permanent Select Committee on Intelligence
  House Subcommittee on Oversight and Evaluation, Permanent
    Select Committee on Intelligence




                                 16
                  PART IV - MANAGEMENT COMMENTS


Director, Defense Technology Security Administration




                               17
DIRECTOR, DEFENSE TECHNOLOGY SECURITY ADMINISTRATION COMMENTS




                     OFFICE OF THE UNDER SECRETARY OF DEFENSE




    •
                              WASHINGTON, D C   10301·2000



                                                               NJ3 I A 1992

                                                             In reply refer to:
                                                             I-31428/92
         MEMORANDUM FOR DIRECTOR, READINESS AND OPERATIONAL SUPPORT
                          DIRECTORATE, OFFICE OF THE INSPECTOR GENERAL
         SUBJECT:   Draft Audit Report on Controls Over Copyrighted
                    Computer Software at the Defense Technology Security
                    Administration (Project No. 2RF-S004.02) - INFORMATION
                    MEMORANDUM
              We have carefully reviewed the draft report and accept its
         recommendations. Since your auditors concluded their on-site
         work, the Defense Technology Security Administration (DTSA) has
         removed from its computers all copyrighted software programs for
         which we had inadequate documentation. We have also supplemented
         DTSA's procedures to include specific provisions for maintaining
         a current inventory of authorized software, confirming periodi-
         cally the authorized software loadings on each computer and
         informing employees that failure to comply with DTSA's procedures
         and copyright restrictions will subject them to possible
         disciplinary action. These supplemental procedures have been
         included in revised DTSA Administrative Instruction No. 18, a
         copy of which is attached.
              Following its creation in 1985, DTSA made a concerted effort
         to develop modern automated support systems and a computer
         literate staff that could effectively exploit them. I wish to
         emphasize that, well before the audit and in the absence of
         specific DoD guidance, DTSA recognized the need to implement
         internal procedures for controls over copyrighted computer
         software and was in the process of implementing them. The draft
         report acknowledges that DTSA had established policies in July
         1988 that were intended to prevent the installation of software
         on its computers unless authorized by appropriate staff. Our
         ability to enforce these policies admittedly had been less than
         adequate. As the draft points out, •it is difficult, if not
         impossible, to prevent users from installing personally owned or
         borrowed software programs on their assigned computers.•
               Initial manual efforts by DTSA in 1989-1990 to document its
         software inventory proved to be insufficient. Thus, DTSA tasked
         its software support contractor in September 1990 to develop a
         plan to automate inventory procedures to better account for
         authorized software. While slowed by other high priority
         projects, the system was mature enough to produce the essential
         baseline data that enabled your auditors to do their work and, at
         the .same time, allowed us to identify and remove all inadequately
         documented software.




                                        19
DIRECTOR, DEFENSE TECHNOLOGY SECURITY ADMINISTRATION COMMENTS
(Cont'd)




               We concur with the audit report's conclusion that the
          actions taken by DTSA •will ensure the integrity of all
          information systems.• However, we believe that the policing of
          our current procedure is very labor intensive and, in the long
          run, not the most cost-effective means of software control. One
          of the benefits of our local area network is that it will
          facilitate enforcement of our software controls. In this
          connection, since well before the audit, we have been exploring
          the possibility of acquiring a specialized software program that
          will block the loading of unauthorized software on individual
          DTSA computers. Subject to funding availability and the
          procurement regulations, we hope to identify and purchase such a
          program within a year.
                The draft report does not cite any evidence of willful
           violation of the copyright laws. Nor has our own internal review
           revealed any such evidence.
                Finally, I wish to acknowledge the professionalism of your
           audit team. They spent many long hours with our staff learning
           how DTSA is coping with complex software problems and their
           constructive interaction led to a sound set of recommendations.



                                  William N. Rudman
                                Deputy Under Secretary
                                Trade Security Policy
           Attachment
           As stated




                                       20
DIRECTOR, DEFENSE TECHNOLOGY SECURITY ADMINISTRATION COMMENTS
(Cant 1 d)




                                OFFICE OF THE UNOER SECRETARY OF DEFENSE

                                         WASHINGTON. 0   C   20301·2000



                                                                           1Ul I 4 1992
         POLICY

                  ADMINISTRATIVE INSTRUCTION NO. 18
                  SUBJECT:     Installation and Operation of Software on DTSA's
                               Defense Export License Tracking and Analysi& (DELTA)
                               Workstations
                  Reference:     (a)   DODD 5500.7, "Standards of Conduct"
                                 (b)   Federal Information Resource Management
                                       Regulations (FIRMR)
                                 (c)   DTSA Automated Information Systems Security Plan
                  A. PUBPOSE. To establish procedures in accordance with the
                  references (a), (b), and (c) to control software which will be
                  used as standard, support tools and development packages for DTSA
                  and to promulgate security procedures to insure the integrity of
                  information within the DELTA information systems environment.
                  B. APPLICABILITY. This instruction applies to all employees of
                  the Defense Technology Security Administration (DTSA) to include
                  contractors and consultants who are authorized access to the DTSA
                  microcomputer workstations.
                  c.  POLICY. It is the policy of DTSA to insure the integrity of
                  the classified and unclassified information systems against
                  compromise and/or willful or accidental destruction of
                  information.
                  D. RESPONSIBILITIES. The Director of the Inforaation Resource
                  Management (IRM) staff will review all software prior to authori-
                  zation for use on DTSA workstations to insure the procurement/
                  licensing of the software is properly documented and that only
                  licensed commercial or tested public domain software is used on
                  DTSA systems. The IRM Director will also ensure that all DTSA
                  users with access to the Secret DTSA LAN are advised of the
                  procedures as specified in the current Automated Information
                  System Security Plan (AISSP) approved by OSO Physical Security.
                   (Note: The AISSP is a separate reference document and is not
                  attached to this AI) ,
                  E. PRQCEDUBES. The following procedures will be used for
                                 .
                  installing and operating software on DTSA Delta workstations •
                       1. No software will be used on or copied onto a DTSA
                  workstation or Server without written approval from the IRM
                  Director or authorized IRM representative.
                       2. Copyrighted software licensed to DTSA and installed on
                  DTSA equipment shall be installed and used in full compliance
                  with the software copyright.




                                                    21
DIRECTOR, DEFENSE TECHNOLOGY SECURITY ADMINISTRATION COMMENTS
(Cont'd)




              3. Public domain software or other software which has been
         tested and accepted by the IRM staff, may be used when this
         software proves to provide added support to the DTSA mission.
               4. DTSA equipment and software shall be used only for
         official Government business in accordance with DoD Directive
         5500.7, subject: Standards of Conduct, page 13,D.3,g as follows:
         • .... DoD personnel shall not use, directly or indirectly, or
         allow the use of, any Government property, including property
         leased to the Government, for other than official purposes.•
              5. Software loaded onto a classified workstation will not
         be removed until all security requirements and procedures
         delineated in the AISSP governing the removal of same have been
         met. The DTSA Security Manager has authority to inspect the
         workstations of all DELTA users.
              6. All DTSA users will access the approved DTSA software
         applications through the standard DTSA menu unless a written
         waiver has been granted by the IRM Director.
              7. The IRM staff will provide three catagories of support
         for DTSA approved software:
                  a. Fullv Supported: IRM will maintain institutional
         expertise and skills in this software. New versions will be
         evaluated and purchased as funding becomes available. Users
         should expect to receive either in-house or commercial training.
         Examples of this software are WordPerfect 5.1 and WordPerfect
         Office.
                  b. Supported to Level of Need: IRM will support this
         software to the level necessary to support a unique application
         or requirement. Software of this kind will be issued to
         individual employees or directorates who maintain their own
         knowledge base in detailed operation and maintenance. This
         software will be updated by the IRM staff only when the version
         change is necessary to the effective operation of the software
         and/or proves substantially cost effective. Training will be
         provided when necessary through approved government or commercial
         courses. Where IRM support is requested, it will be provided on
         an as available basis and only vhen in house expertise exists.
         Examples of this software are Zyindex and Lotus 1-2-3.
                  c. Not Directly Supported: This software is provided
         for use •as i~.· No warranty other than a best effort IRH
         evaluation that the software is safe to use and useful for the
         express purpose stated will be given. No training or technical
         support will be provided other than that which accompanies the
         software package. This software will be updated only when it is
         absolutely necessary or when such updates are freely available to
         the public. An example of this software is the •List• software.




                                        22
DIRECTOR, DEFENSE TECHNOLOGY SECURITY ADMINISTRATION COMMENTS
(Cont'd)




        F. Supplemental Control Procedures. The following procedures
        will be implemented (and monitored) by the IRM staff:
             1. The IRM staff will maintain software license numbers
        and/or agreements and related purchase documentation for as long
        as the software is used at DTSA. Licenses for software no longer
        in use will be transferred in accordance with applicable DoD or
        FIRMR directives and the software will be deleted from DTSA
        systems.
             2. Each Director within DTSA will be provided a listing of
        software and hardware for each workstation in his/her Directo-
        rate. The IRM staff and each DTSA workstation user will be
        required to verify the listing of the hardware and software
        assigned to the users workstation on a semi-annual basis by
        signing the •AOP Equipment/Software Assignment Form• (see
        attachment).
              3. The IRM staff will conduct random checks of workstations
         in each Directorate and the Director will be notified in writing
         should any unauthorized software be detected. Any workstation
         with unauthorized software cannot be used until a virus scan has
         been completed by the IRM staff and the unauthorized software is
         removed.
              4. It is the responsibility of the workstation user to
         promptly notify the IRM staff of any suspected unauthorized
         changes to the installed software on his/her assigned
         workstation.
              5. DTSA employees who violate these procedures will be
         subject to disciplinary action.
         G. EFFECTIVE DATE. This instruction is effective immediately.


                                   ~~~
                                     H. p . Ady II I
                                               I


                             Director, Resource Management
                      Defense Technology Security Administration

         Attachment
         As stated




                                          23
DIRECTOR, DEFENSE TECHNOLOGY SECURITY ADMINISTRATION COMMENTS
(Cont'd)



                        DTSA ADP EQUIPMENT/SOFTWARE ASSIGNMENT FORM
           User Name:
           Directorate:
           Date:

           The ADP equipment/software listed below and in the attachment has
           been assigned to you. Please verify the information is accurate
           and report any discrepancies to IRM/DPI.



           ADP Equipment
                   See Attachment 1.


           ADP Software
                   See Attachment 2.



           I have verified that the above information is accurate. I
           understand that no change in the foregoing assigned
           equipment/software may be made unless authorized in writing by a
           representative of the Information Resource Management staff of
           the DTSA Resource Management Directorate. I understand that no
           software may be copied without such authorization. I understand
           that a violation of these requirements is subject to disciplinary
           action.



           Signature (IRM Representative)          Signature (User)



           Date                                    Date


           Attachment(s)
           As stated




                                              24
AUDIT TEAM MEMBERS

William F. Thomas, Director, Readiness and Operational
  Support Directorate
Harrell D. Spoons, Program Director
Marvin L. Peek, Project Manager
John Van Horn, Team Leader
Lisa Earp, Auditor
Rhonda Carter, Auditor
Nancy Cipolla, Editor
Paula Stark, Secretary
